No. 20-325

In the Supreme Court of the United States
Whitserve LLC v. Donuts Inc., Name.Com, Inc., et al.
CERTIFICATE OF COMPLIANCE
As required by the Supreme Court Rule 33.1(h), I certify that the document
contains 2,910 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under the penalty of perjury that the foregoing is true and correct.
Executed on October 23, 2020.
Karen R. Taylor
Gibson Moore Appellate Services, LLC
206 East Cary Street
P.O. Box 1460 (23218)
Richmond, VA 23219
(804) 249-7770 – Telephone
(804) 249-7771 – Facsimile
karen@gibsonmoore.net

